—Gase: 20-1949

Document: 12

Page: 1

Filed: 09/23/2020

NOTE: This order is nonprecedential.

Uniteb States; Court of Appeals:
for tfje jfcticrat Circuit
FREDERICK DEMOND WILSON,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1949
Appeal from the United States Court of Federal Claims
in No. l:20-cv-00130-DAT, Judge David A. Tapp.
Before REYNA, WALLACH, and CHEN, Circuit Judges.
Per Curiam.
ORDER
Having considered Frederick Demond Wilson’s com­
plaint, the judgment of the United States Court of Federal
Claims, and the opening informal brief, the court now dis­
misses this appeal under 28 U.S.C. § 1915(e)(2)(B).
In the underlying complaint, Mr. Wilson alleged, inter
alia, that the United States and former President Bill Clin­
ton used Mr. Wilson’s intellectual property without his per­
mission. The Court of Federal Claims dismissed, finding
that Mr. Wilson had failed to establish the court’s subject

Case: 20-1949

Document: 12

Page: 2

2

Filed: 09/23/2020

WILSON v. US

matter because he had not stated that the alleged wrong
occurred within the six years prior to the filing of his complaint as required pursuant to 28 U.S.C. § 2501.
Mr. Wilson is proceeding in forma pauperis on appeal.
By statute, “the court shall dismiss the case at any time if
the court determines that . . . [the] appeal ... is frivolous
.. . 28 U.S.C. § 1915(e)(2)(B). An appeal is frivolous if it
“lacks an arguable basis either in law or in fact.” Neitzke
u. Williams, 490 U.S. 319, 325 (1989).
Nothing in Mr. Wilson’s filings in this court address the
deficiency found in his complaint, i.e., when the wrong was
alleged to have occurred. The arguments Mr. Wilson does
raise, such as collusion, the pandemic, and tampering, do
not create a non-frivolous issue as to whether the Court of
Federal Claims erred in dismissing the complaint. Dismis­
sal of the appeal is therefore necessary.
Accordingly,
It Is Ordered That:
(1) The appeal is dismissed.
(2) Any pending motions are denied as moot.
(3) Each side shall bear its own costs.
For the Court
Sentember 23. 2020
Date

s35

Is/ Peter R, Marksteiner
Peter R. Marksteiner
Clerk of Court

Case l:20-cv-00130-DAT Document 13 Filed 05/20/20 Page 1 of 2

3fn t\)t Hmteb States; Court of Jfrbtral Claims
No. 20-130C
Filed: May 20, 2020

FREDERICK DEMOND WILSON,

Plaintiff,
v.
UNITED STATES,
Defendant.

OPINION AND ORDER
Tapp, Judge.
On February 2, 2020, Plaintiff, Mr. Frederick Wilson (“Wilson”), filed a complaint in this
Court. (Compl., ECF No. 1). Wilson’s complaint is largely incomprehensible but, as best the
Court can discern, Wilson alleges that the United States and former President Bill Clinton used
his intellectual property without permission. {See generally, Compl.). On April 16, 2020,
Defendant, the United States, filed a Motion to Dismiss, pursuant to Rules 12(b)(1) and 12(b)(6)
of the Rules of the United States Court of Federal Claims (RCFC). (Def.’s Mot., ECF No. 9).
Wilson’s response was due by May 15, 2020. Although Wilson has filed numerous documents
since the United States moved to dismiss, none of these documents were responsive to the United
States’ motion.1 As such, there being no just reason for delay and for the reasons set forth below,
the Court hereby GRANTS the United States’ motion to dismiss.
The burden of establishing subject matter jurisdiction rests with the plaintiff, who must
do so by a preponderance of the evidence. Lujan v. Defenders of Wildlife, 504 U.S. 555, 561
(1992); Reynolds v. Army & Air Force Exch. Serv., 846 F.2d 746, 748 (Fed. Cir. 1988). A pro se
plaintiffs pleadings are generally held to “less stringent standards” than those of a professional
lawyer. Haines v. Kerner, 404 U.S. 519, 520-21 (1972) (requiring that allegations contained in a
pro se complaint be held to “less stringent standards than formal pleadings drafted by lawyers”).
However, the Court cannot extend this leniency to relieve plaintiffs of their jurisdictional burden.
Kelley v. Sec'y, U.S. Dep't ofLabor, 812 F.2d 1378, 1380 (Fed. Cir. 1987). Whether a court has
jurisdiction is a threshold matter in every case. See Steel Co. v. Citizens for a Better Env’t, 523

1 Apart from being unresponsive to the United States’ motion to dismiss, there was no provision in the RCFC
permitting the filing of these documents and the documents were not in compliance with Chief Judge Margaret M.
Sweeney’s March 18, 2020, General Order, (ECF No. 6). As such, these documents were returned to Wilson
unfiled. (See ECF Nos. 10, 12).

Case l:20-cv-00130-DAT Document 13 Filed 05/20/20 Page 2 of 2

U.S. 83, 94-95 (1998). “If the Court determines at any time that it lacks subject-matter
jurisdiction, the court must dismiss the action,” RCFC 12(h)(3).
To fall within this Court has jurisdiction, claims against the United States must be filed
within six years after such claim accrues. 28 U.S.C. § 2501; see also John R. Sand & Gravel Co.
v. United States, 552 U.S. 130, 133—135 (2008) (holding that § 2501’s limitations period
prescribes a jurisdictional limit to the Court of Federal Claim’s ability to adjudicate claims
against the United States, cannot be waived, and may not be equitably tolled). Under § 2501 , a
claim first accrues “when all the events have occurred that fix the alleged liability of the
government and entitle the claimant to institute an action.” Hopland Band ofPorno Indians v
United States, 855 F.2d 1573, 1576-77 (Fed. Cir. 1988).
Here, Wilson alleges that the United States and former President Bill Clinton used his
intellectual property without his permission. (Compl. at 2). However, Wilson does not state when
this wrong allegedly occurred. To fall within this Court has jurisdiction, claims against the
United States must be filed within six years after such claim accrues. 28 U.S.C. § 2501; see also
John R. Sand & Gravel Co. v. United States, 552 U.S. 130, 133-135 (2008). As Wilson has not
stated when this alleged wrong occurred, Wilson has failed establish subject-matter jurisdiction
in this Court. See Reynolds, 846 F.2d at 748. Accordingly, the Court hereby GRANTS the
United States’ motion to dismiss pursuant to RCFC Rule 12(b)(1). As such, the United States’
alternative theory of dismissal under RCFC Rule 12(b)(6) is moot.
The Clerk is directed to enter judgment accordingly.
IT IS SO ORDERED.

DAVID A. TAPP, Judge

2

Case: 20-1949

Document: 15

Page: 1

Filed: 10/23/2020

NOTE: This order is nonprecedential.

Unitcb States Court of SUppeafe
for tfje jfeberal Circuit
FREDERICK DEMOND WILSON,
Plaintiff-Appellant
v.

UNITED STATES,
Defendant-Appellee
2020-1949
Appeal from the United States Court of Federal
Claims in No. l:20-cv-00130-DAT, Judge David A. Tapp.
ON PETITION FOR PANEL REHEARING
Before REYNA, WALLACH, and CHEN, Circuit Judges.
Per Curiam.
ORDER
The court construes Appellant Frederick Demond
Wilson’s October 16, 2020 filing as a petition for panel
rehearing.
Upon consideration thereof,
It Is Ordered That:

Case: 20-1949

Document: 15

2

Page: 2

Filed: 10/23/2020

WILSON v. UNITED STATES

The petition for panel rehearing is denied.
The mandate of the court will issue on November 16,
2020.

For the Court
October 23. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

